<html>
<title> - GAO REVIEW: ARE ADDITIONAL FEDERAL COURTHOUSES JUSTIFIED?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
       GAO REVIEW: ARE ADDITIONAL FEDERAL COURTHOUSES JUSTIFIED?

=======================================================================



                                (113-11)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 17, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation




                  U.S. GOVERNMENT PRINTING OFFICE
80-438                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Mark L. Goldstein, Director, Physical Infrastructure Issues, U.S. 
  Government Accountability Office...............................     9
Hon. Michael A. Ponsor, Judge, United States District Court for 
  the District of Massachusetts, and Chairman, Committee on Space 
  and Facilities, Judicial Conference of the United States.......     9
Dorothy Robyn, Commissioner, Public Buildings Service, U.S. 
  General Services Administration................................     9

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. Jim Cooper, of Tennessee....................................    39

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Mark L. Goldstein................................................    41
Hon. Michael A. Ponsor...........................................    54
Dorothy Robyn....................................................    84

                       SUBMISSIONS FOR THE RECORD

Hon. John L. Mica, a Representative in Congress from the State of 
  Florida, request to submit the following:

    Exhibit A: List of excess Federal courthouse space created in 
      Florida between 2000 and 2010..............................     6
    Exhibit B: Miami courthouse complex--Wilkie D. Ferguson, Jr. 
      United States Courthouse...................................     8


[GRAPHIC] [TIFF OMITTED] 80438.001

[GRAPHIC] [TIFF OMITTED] 80438.002

[GRAPHIC] [TIFF OMITTED] 80438.003

[GRAPHIC] [TIFF OMITTED] 80438.004

[GRAPHIC] [TIFF OMITTED] 80438.005



                       GAO REVIEW: ARE ADDITIONAL



                     FEDERAL COURTHOUSES JUSTIFIED?

                              ----------                              


                       WEDNESDAY, APRIL 17, 2013

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:36 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the committee) presiding.
    Mr. Shuster. The committee will come to order. I first want 
to take the opportunity to welcome everybody here today, 
especially our distinguished witnesses: Mr. Mark Goldstein, who 
is the director of Physical Infrastructure, Government 
Accountability Office--good to see you, Mr. Goldstein, again; 
the Honorable Michael Ponsor, judge of the United States 
District Court for the District of Massachusetts and Chairman 
of the Committee on Space and Facilities of the Judicial 
Conference of the United States--welcome; and Dr. Dorothy 
Robyn, the Commissioner of Public Buildings, General Services 
Administration. Welcome.
    And also, a special welcome to my Federal judge, Brooks 
Smith from Hollidaysburg, Pennsylvania. And I understand he is 
slated to become the Chairman of the Committee on Space and 
Facilities for the Judicial Conference of the United States. 
Welcome, Judge Smith. Good to see you.
    The purpose of today's hearing is to prevent the future 
overbuilding of Federal courthouses and to save billions of 
taxpayer dollars, and I think that is something that we are all 
very, very focused on in Congress today and across the United 
States, is saving taxpayers' dollars. Today, we are releasing 
GAO's most recent report on the Federal judiciary's 5-year plan 
for new courthouses.
    And, essentially, the committee asked GAO a basic question: 
``Keeping in mind that we could administer justice in a 
warehouse with two milk crates and a piece of plywood, the 
judiciary and the GSA have learned the lessons of past 
overbuilding, and can Congress rely on the 5-year plan to 
authorize the highest priority and necessary courthouse 
projects?'' That is the question.
    Unfortunately, GAO's response is ``No.'' In fact, GAO's 
written testimony today recommends a moratorium on new 
courthouses until the projects on the plan can be re-evaluated.
    The 5-year plan lays out the judiciary's priorities for 
courthouse construction in the coming fiscal years, and the 
current plan includes projects representing more than $3 
billion in costs to the taxpayer.
    So what were the mistakes of the past and what did they 
cost the taxpayers?
    In 2010, at the request of the committee, GAO reviewed all 
33 courthouses built between 2000 and 2010. And the GAO found 
that over 3.5 million extra square feet were built, costing the 
taxpayers $883 million in construction costs and $51 million in 
annual operating, the extra space. And that figure doesn't even 
count the space abandoned by the courthouse, such as the old 
Dyer Courthouse in Miami or the Dillon Courthouse sitting 
vacant right now in downtown Buffalo, New York.
    The GAO gave 3 reasons for this waste of taxpayer money: 
the judiciary overestimated the number of future judges by as 
much as 50 percent; the judiciary's policy to not share 
courtrooms, requiring new courtrooms and chambers for every 
projected judge; and GSA simply built larger and more expensive 
courthouses than Congress authorized.
    Let me give you one example here in Washington, DC. Two 
days ago Chairman Barletta, Ranking Member Norton, and I toured 
the Federal courthouse on Constitution Avenue. It consists of 
two buildings: the original 1950s courthouse and the large 
annex that opened in 2005. When GSA proposed the annex in the 
1990s, the judiciary projected they would be 36 district judges 
when it opened. Today there are only 24. As a result, there are 
about 600 people working in almost 1 million square feet. To 
put that in context, that's about the size of 500 2,000-square-
foot homes.
    To avoid making the same mistakes in the future, it appears 
we can't rely on the projections of future judges, we need 
courtroom sharing, and GSA has to follow the law and build 
courthouses within the authorized limits.
    Eight years ago, when I chaired the subcommittee I 
requested a judiciary study--courtrooms--how often courtrooms 
are used and adopt courtroom sharing. The courts' own report 
showed that courtrooms across the Nation sat unused for most of 
the day, and they adopted a courtroom sharing policy for new 
courthouses.
    In addition, the judiciary revised its planning process for 
when to recommend new courthouses for construction. Today, we 
will hear testimony on GAO's review of this process and the 
judiciary's 5-year courthouse plan. This plan is critical in 
helping GSA and Congress determine what projects are justified 
and cost-effective. The accuracy of this plan and how it is 
developed should ensure taxpayer money is not wasted.
    However, as we will hear today, there are serious questions 
as to whether the projects on the most recent 5-year plan, 
submitted to the committee last month, are even needed. Despite 
developing a new assessment process to evaluate the need for a 
new courthouse, the judiciary has not applied the process to 10 
of the 12 projects on the plan. As I said earlier, GAO 
recommends a moratorium on new courthouses until the projects 
can be re-evaluated using the new assessment process.
    Right now we are running trillion-dollar deficits, we have 
a $16 trillion debt, and agencies are furloughing staff and 
shutting down air traffic control towers. In homes across the 
Nation, families are worried about the economy, their jobs, and 
balancing their own budgets. They expect the same from us here 
in Washington. And we must save taxpayer dollars and we must 
ensure new projects are truly needed and fully justified.
    And it has been brought to my attention that our colleagues 
across the capital, in some cases, don't apply the same 
standards that we or the GAO or the judiciary do in picking 
courthouses. So that is something we have to make sure, in this 
body, are standing up to those folks on the other side of the 
Capital.
    I look forward to the testimony of our witnesses, and I 
hope we can--you can help Congress to decide what, if any, 
courthouses should be approved in the future.
    So, again, thank you. Welcome. And with that, Ranking 
Member Norton is recognized.
    Ms. Norton. Thank you very much, Mr. Chairman. You will 
recall that the overbuilding and resistance to sharing 
courtrooms has been one of the pet peeves of this committee for 
many years now. I was pleased to accompany the chair of our 
full committee, Mr. Shuster, and Mr. Barletta, to our own 
Federal courthouse here just the other day, this week, where we 
saw a courthouse that was built before there was any sharing, 
where all the judges can have her or his own courtroom, and 
where you have a very lovely courthouse, but where you don't 
meet the standards that have since been set by this committee.
    Now, that courthouse was authorized in 1999. So we are more 
than 10 years out from that. And it is our obligation to see to 
it that all courthouses follow the directions of this committee 
that have now been made plain.
    So, we are pleased to convene this hearing about the GAO 
report on the Judicial Conference of the United States 5-year 
construction plan. Today's hearing has, as its necessary 
context, a 2010 GAO report that the Economic Development, 
Public Buildings, and Emergency Management Subcommittee 
commissioned in 2008 to examine courthouse planning and 
construction, including management and costs. The GAO report 
found astonishing--made astonishing findings of mismanagement 
by GSA and the judiciary of the courthouse program, and 
documented wasted funds and space.
    The GAO determined that the 33 courthouses constructed by 
GSA since 2000 included 3.56 million square feet of space above 
the congressionally authorized specifications and frequent 
overestimation of the number of judges that courthouses would 
need to accommodate, and failed to implement courtroom sharing, 
despite the committee's mandate. The GAO also found that the 
total value of the extra space was $835 million in construction 
costs and $51 million annually in rent and operation expenses.
    Following the GAO study in August of 2010, the leadership 
of the Subcommittee on Economic Development, Public Buildings, 
and Emergency Management submitted a bipartisan letter to 
President Obama highlighting the concerns about waste, stating 
the committee would withhold authorizing new Federal courthouse 
construction until the committee was satisfied that appropriate 
reforms to the program were in place.
    We then requested a GAO study of the Judicial Conference's 
5-year courthouse project plan to determine whether the 
courthouse current construction schedule had been evaluated in 
the context of new courtroom-sharing guidelines and best 
practices in capital planning. The findings of the latest GAO 
report on the 5-year courthouse project plan are stunning, yet 
unsurprising.
    The judiciary has rightly made some adjustments to the 
capital planning process in light of the continued urging and 
oversight of this committee, by developing the asset management 
planning, or AMP process, in 2006 that more accurately 
represents the administrative office of the U.S. courts' 
current policies on judicial sharing, projecting judges, 
security deficiencies, and facility conditions.
    Unfortunately, the judiciary has rejected GAO's 
recommendations to re-evaluate the 12 projects that are 
currently on the 5-year courthouse project plan, and would like 
to proceed with nearly $3.2 billion worth of projects on the 
list without the benefit of the AMP process.
    As of October 2012, the judiciary has conducted AMP 
evaluations for about 67 percent of all Federal courthouses. As 
a result of the AMP process, two projects that were on the 
prior 5-year courthouse project plan were removed, and the 
judiciary determined that the needs of those courthouses could 
be addressed through repair and alteration projects that 
reconfigure space.
    The judiciary, however, has not agreed to re-evaluate the 
other 10 projects on the 5-year courthouse project plan, and to 
make adjustments based on the AMP process being applied now to 
the entire inventory.
    I will withhold my support of the authorization of any 
courthouse construction on the judiciary's 5-year project plan 
until I am assured that there will be real savings and steps to 
control spending in the judiciary construction program, and 
that planning of new courthouses is consistent with the actual 
needs of the judiciary, based on the AMP process. We intend to 
work with GSA and the judiciary to ensure that good asset 
management decisions are made in the courthouse construction 
program.
    We appreciate the testimony of our witnesses, and we 
welcome your thoughts, suggestions, and insights. And I thank 
you, Mr. Chairman.
    Mr. Shuster. Thank you. And with that I recognize the 
subcommittee chairman, Mr. Barletta, for his opening statement.
    Mr. Barletta. Thank you. I want to thank Chairman Shuster 
for his leadership and work to reduce costs in the Federal 
courthouse program.
    In 2005 Chairman Shuster chaired the subcommittee I now 
chair, and began to look into whether we need all of the space 
the judiciary and GSA were proposing. The committee did not 
make a knee-jerk reaction. Ensuring the proper administration 
of justice for our citizens is critical to the Nation. Chairman 
Shuster insisted on thorough reviews and studies. Years later, 
we now have the benefit of that work and we can act on it.
    We now know, from numerous GAO studies and judiciary's own 
space usage report that, in fact, significant money can be 
saved in the courthouse construction program. And, as part of 
this work, today GAO has recommended that we take a step back 
and wait for the judiciary to properly evaluate the $3 billion 
worth of projects on its 5-year courthouse plan before we act 
and spend more taxpayer dollars. That seems to be a logical 
conclusion.
    With today's budget deficits, the growing national debt, 
and people expecting Government to be a better steward of the 
tax dollar, we must ensure waste is minimized. I appreciate the 
work of the judiciary to take--that has taken to improve the 
process it uses to evaluate the need for new courthouses. 
While, as GAO points out, the new process is not perfect, and 
there could be further improvements to the new process, it is a 
step in the right direction.
    However, knowing that at least 10 of the 12 projects 
currently on the 5-year plan have yet to be evaluated under the 
new process, we must ask the question: Are these projects still 
urgently needed? Are they justified? I hope we can address 
these issues today as we hear from our witnesses. Thank you, 
Mr. Chair.
    Mr. Shuster. Thank you. With that I would recognize a brief 
statement from Mr. Mica, the former chair of the full 
committee.
    Mr. Mica. Well, thank you. And thank you, Chairman Shuster, 
and also Chairman Barletta, Ranking Member Norton, for 
conducting this hearing. I think this is an appropriate time to 
start again refocusing--Mr. Shuster has done it in the past, we 
have done it in the committee--and looking at the Federal 
Government's bulging inventory of judiciary overbuilt Taj 
Mahals is long overdue. I think that what you are going to 
accomplish today, and when we are facing these huge deficits 
and looking for ways to save taxpayer money, we can have a 
``lessons learned.''
    I conducted a little inventory, Mr. Chairman, of Florida in 
the last 10 years. And we have Tallahassee, Jacksonville, 
Orlando, Miami. The Federal courthouses built there, the excess 
space that was constructed was over half-a-million square feet, 
551,000. This is Exhibit A I would like to submit for the 
record today of Florida's history, if we could do that, Mr. 
Chairman. I would like to submit Exhibit A.
    Mr. Shuster. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 80438.006
    
    Mr. Mica. Then I want to take--drill down to one example. 
In Miami they built a Federal courthouse to replace the Dyer 
Building, and that particular building was built with 97,000 
square feet more than they needed, and it was authorized by 
Congress. Now, you have, basically, in building the temples of 
justice you have people violating the Federal law. How the hell 
are they building these things exceeding the guidelines 
established and what is set in law?
    So, this is Exhibit B of what has taken place in Miami. I 
would like that submitted.
    Mr. Shuster. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 80438.007
    
    Mr. Mica. Then, finally is the court--when we build these 
courthouses, we know there will either be vacant space or what 
are they going to do with the space? The Dyer Building, we did 
a hearing under this committee, I just did one chairing the 
Government Oversight Subcommittee in Miami. That building has 
been vacant for nearly 6 years, probably $20 million worth of 
remediation now required because it sat idle with mold, costing 
the taxpayers in excess of $1.2 million to sit idle. And when 
we finished the hearing I got a letter from Miami-Dade College, 
which is across the street, telling me for 5 years they have 
been trying to get the building and couldn't get the building 
and would utilize the building and take it off the taxpayers' 
roll.
    So, today I am introducing a bill to transfer that, and 
working with the south Florida and the Florida delegation to 
transfer the damn building and get it out of, again, the 
deficit column of the taxpayers.
    I thank you for coming. I do have a competing hearing, and 
wanted to get that in. Yield back.
    Mr. Shuster. I thank the chairman for his statement and for 
his hard work over the years.
    I again wanted to welcome our witnesses; thanks for being 
here today. I ask unanimous consent that our witnesses' full 
statements be included in the record. I would ask--without 
objection, so ordered.
    And since your written testimony is in the record, I ask 
you to keep it to 5 minutes and then we will go to asking 
questions after you have--all three of you have completed. So, 
with that first, Mr. Goldstein, you may proceed.

      TESTIMONY OF MARK L. GOLDSTEIN, DIRECTOR, PHYSICAL 
 INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
HON. MICHAEL A. PONSOR, JUDGE, UNITED STATES DISTRICT COURT FOR 
THE DISTRICT OF MASSACHUSETTS, AND CHAIRMAN, COMMITTEE ON SPACE 
 AND FACILITIES, JUDICIAL CONFERENCE OF THE UNITED STATES; AND 
  DOROTHY ROBYN, COMMISSIONER, PUBLIC BUILDINGS SERVICE, U.S. 
                GENERAL SERVICES ADMINISTRATION

    Mr. Goldstein. Thank you, Mr. Chairman and members of the 
committee. A pleasure to be here this morning. I am pleased to 
be here to discuss the Federal judiciary's capital planning 
efforts for new courthouses.
    Since the early 1990s, the judiciary and the GSA have 
undertaken a multibillion-dollar Federal courthouse 
construction program. To date, this program has resulted in 78 
new courthouses or annexes, and 16 projects that are currently 
in various stages of development. However, rising costs and 
other budget priorities that you have mentioned this morning 
have slowed the construction program. In addition, we have 
previously found that almost all courthouses built in the last 
10 years have been constructed larger than necessary because of 
poor planning, inadequate oversight, and inefficient courtroom 
use.
    In 2008, the judiciary began using a new capital planning 
process called the Asset Management Planning process, AMP, to 
assess, identify, and rank its space needs. judiciary officials 
said the AMP process addresses concerns about growing cost and 
incorporates best practices related to capital planning.
    Today we are releasing a new report that addresses the 
extent to which the judiciary's capital planning process aligns 
with leading practices, and provides information needed for 
informed decisionmaking related to new courthouses, and the 
extent to which courthouse projects recommended for funding in 
fiscal years 2014 to 2018 were assessed under the judiciary's 
AMP process. My statement highlights the key findings and 
recommendations. Our findings are as follows.
    First, the asset management planning process represents 
progress by the judiciary in better aligning its capital 
planning process with leading capital planning practices. But 
its 5-year plan for fiscal year 2014 to 2018, the document the 
judiciary uses to request courtroom construction projects, 
lacks transparency and key information on how projects quality 
for new construction, alternatives the judiciary considered, 
and their cost.
    For example, the Plan lists costs for the next phase of the 
12 recommended courthouse projects, which have several phases. 
But it does not list previous funding or ongoing annual costs 
for these projects. As a result, the plan lists about $1 
billion in costs for the 12 projects, but the projects would 
actually cost the Federal Government an estimated $3.2 billion 
over the next 20 years.
    Congress has appropriated a small share of the money needed 
for the projects, and most will need design changes before 
construction can begin. As a result, there is a risk that 
congressional funding decisions could be made without complete 
and accurate information. However, with this information, 
decisionmakers could weigh current-year budget decisions within 
the context of projects' expected future costs, and spur 
discussion and debate about actions to address them and put the 
judiciary's requests in context with other Federal spending.
    Second, 10 of the 12 recommended projects were not 
evaluated under the AMP process. judiciary officials said they 
did not want to delay the current projects, or force them to 
undergo a second capital planning process after they had 
already been approved. Two courthouse projects from a previous 
5-year plan that were assessed under AMP were removed from the 
list, and are now ranked behind more than 100 other courthouse 
construction projects.
    Furthermore, 10 of the 12 recommended construction projects 
do not qualify for a new courthouse under the AMP criterion, 
which requires that new courthouses need two or more additional 
courtrooms. These conditions call into question the extent to 
which the projects remaining on the 5-year plan represent the 
judiciary's most urgent projects, and whether proceeding with 
these projects represents the most fiscally responsible 
proposal.
    While 10 additional AMP evaluations would involve some 
additional costs, not conducting those evaluations could 
involve spending $3.2 billion over the next 20 years on 
courthouses that may not be the most urgent projects. As a 
result, we have made several recommendations, including: the 
judiciary should provide more information to decisionmakers 
related to how projects qualify for new construction; any 
alternatives the judiciary considered, and their cost; and 
impose a moratorium on the projects currently on the 5-year 
plan until they are evaluated under AMP.
    Mr. Chairman, that concludes my oral statement. I would be 
happy to respond to questions that you or other Members have. 
Thank you.
    Mr. Shuster. Thank you, Mr. Goldstein.
    And with that, Judge Ponsor, please proceed.
    Judge Ponsor. Thank you. My name is Michael Ponsor. That is 
spelled P-o-n-s-o-r, in contrast to this morning's Washington 
Post article, which spells my name P-o-s-n-e-r. Judge Richard 
Posner is much richer, taller, and smarter than I am, and I am 
proud to be confused for him. But my name is Ponsor, P-o-n-s-o-
r.
    [Laughter.]
    Judge Ponsor. It is an honor to appear before this 
committee again in my role as chair of the Judicial 
Conference's Committee on Space and Facilities to discuss the 
GAO's draft report. I want to make two points, preliminarily.
    First, I want you to know that we do appreciate this 
committee's assistance with the courthouses that have been 
authorized and built over the past decades, including the 
courthouse in Springfield, Massachusetts, where I work. These 
buildings do allow the judiciary to perform its mission for the 
people of this country, the administration of justice, in a 
safe and well-functioning physical environment.
    Second, I want to confess an error in my submitted written 
testimony. Page 12 addresses certain inaccuracies in the GAO's 
report concerning numbers of courtrooms in some of the 
courthouses in the judiciary's 5-year plan. There are 
inaccuracies in the GAO report, but my summary of these 
inaccuracies also contains inaccuracies, and I only realized 
that last night. We will be submitting a replacement page with 
the correct numbers.
    There is no higher priority for my committee, especially 
these days, than reducing the cost for space for the judiciary. 
Among the many steps we have taken at the urging of the 
committee is the implementation of courtroom-sharing policies 
for senior judges, magistrate judges, and bankruptcy judges. We 
also adopted a recommendation from GAO's 2010 report that we 
not plan for courtrooms that are projected as necessary, but 
not yet approved by the Congress. Let me address the draft 
report's two recommendations.
    With regard to the first recommendation, the need to 
provide additional information, the report does overlook or 
disregard not only the extensive documentation generated by the 
judiciary's long-range planning process, but also the primary 
role that GSA plays in the planning and cost estimating for new 
courthouses. The judiciary's 5-year plan has never been 
intended to be a long-term capital investment plan as the 
report mistakenly assumes. The 5-year plan is simply intended 
to encapsulate the judiciary's priorities for new courthouse 
projects. In fact, the information which GAO suggests be part 
of our 5-year plan is already provided to decisionmakers 
through GSA on behalf of and in coordination with the 
judiciary.
    For each project proposed for funding, GSA produces a 
lengthy feasibility study evaluating all alternatives to new 
construction. If the product is approved, GSA provides a 
detailed prospectus for site and design and another for 
construction. These prospectuses summarize the need for the 
project and its scope, alternatives considered, and costs, 
prior funding, and the project schedule. It would be a waste of 
limited resources, and would be unnecessary, for the judiciary 
to replicate the fine work that GSA is already doing.
    Of greatest concern in the draft report is GAO's second 
recommendation, stating that the judiciary impose a moratorium 
on projects on the current 5-year plan until AMP evaluations 
are completed for each of them. The proposed re-evaluation 
would also likely require a subsequent repetition by GSA of its 
feasibility study. The effect of this recommendation on 
projects which Congress has already supported with $188 million 
in funding would risk further extensive delays.
    While the AMP process does feature significant refinements 
and improvements, the prior process accurately identified 
courts where the need for new facilities was most urgent. 
Significantly, both processes require GSA feasibility studies 
and require prospectuses. Both protocols are detailed and 
comprehensive and require years to complete. Because of this, 
no reconsideration of the 5-year plan is necessary.
    Further evidence of this comes from the fact that 4 of the 
12 projects on the current plan--I emphasize, 4 of the 12 
projects on the current plan--have gone through the AMP 
process: Chattanooga, Des Moines, San Antonio, and Anniston 
have already been reviewed through the AMP process, and their 
degree of urgency is confirmed. The other eight projects have 
been updated to reflect the judiciary's courtroom sharing 
policies, and the determination not to plan for projected 
judgeships.
    For 8 of the 12 projects, sites have already been acquired. 
In two instances there is a swap with municipalities: San 
Antonio and Charlotte, North Carolina. In 10 of the 12 
projects, the courthouses have been on the plan for more than 
10 years. It would be brutally unfair to make these 
communities, after so long, endure further unnecessary delay 
for additional analysis and review. The projects on the current 
5-year plan deserve to remain where they are.
    It is especially disturbing that the GAO report ignores 
ominous security deficiencies that have been identified in the 
courts on the 5-year plan. All these courthouses lack essential 
security features, such as secure sally ports for unloading 
prisoners, holding cells for defendants in custody, secure 
corridors, and separate elevators for court staff. These 
courthouses have become, in the words of the U.S. Marshals 
Service, ``disasters waiting to happen.'' The security concerns 
are real. They are not hypothetical. It is dangerous, as well 
as unfair, to expect these communities to endure further delays 
caused by needless additional analysis and data collection, as 
the draft report recommends.
    Apart from the absence of any discussion of potential 
security risks, the report omits any reference to the 
deteriorating physical condition of the facilities on the plan. 
The report notes that the GAO team visited two courthouses on 
the 5-year plan and observed that keen insights were obtained, 
as a result. Unfortunately, the report nowhere reveals what 
these insights were.
    The letter and photographs of Chief Judge Lisa Wood, which 
are attached to my written testimony, whose Savannah Courthouse 
was built in 1899, was visited by GAO. This letter and these 
photographs vividly detail the serious structural defects that 
plague her courthouse. These deficiencies in building systems 
and structures are typical of shortcomings existing in various 
ways in all the courthouses on the 5-year plan.
    In sum, the recommendation that this judiciary treat its 5-
year plan as a long-term capital investment plan misconstrues 
the purpose of the 5-year plan and ignores the wealth and data 
of analysis provided by the GSA that already accompanies each 
building project. The recommended moratorium would be 
devastating to the 12 communities that have waited so long and 
would prove dangerous, expensive, and unnecessary.
    I would be glad to answer questions you may have.
    Mr. Shuster. Thank you, Judge, for your testimony. And it 
doesn't surprise any of us that the Washington Post got the 
facts wrong.
    [Laughter.]
    Mr. Shuster. And with that, I recognize Dr. Robyn. You may 
proceed.
    Ms. Robyn. Good morning, Chairman Shuster, Chairman 
Barletta, Ranking Member Norton, other members of this 
committee. I am Dorothy Robyn, Commissioner of GSA's Public 
Building Service. I appreciate being invited here today to 
discuss GSA's investment in U.S. courthouses, and GAO's latest 
report on courthouse construction. I want to make four points 
this morning.
    First, GSA is committed to meeting the needs of the courts 
in the most cost-effective way possible. Over the last two 
decades, GSA and the courts have continually and significantly 
refined the process for selecting, managing, and overseeing 
courthouse construction projects. One key example is the 
judiciary's recent policy of requiring judges to share 
courtrooms, which has allowed the courts to significantly 
reduce their requirements.
    For its part, GSA has shifted its focus to the renovation 
and improvement of existing courthouses wherever possible, both 
to limit the need for all new construction, and to preserve 
buildings that are historic landmarks in many communities. We 
have also developed controls such as the use of Building 
Information Modeling, or BIM, to ensure that our projects come 
within budget.
    Second, although GSA has not sought or received 
appropriation for any new courthouse construction project since 
2010, we have worked with the judiciary during that time to 
implement the new approaches to the projects on the 5-year 
plan. For example, in San Jose, California, GSA worked with the 
judiciary to reassess proposed new construction in light of 
courtroom sharing. As a result, the courts were able to remove 
San Jose from the 5-year plan. We are, in turn, developing a 
revised prospectus to pursue selected upgrades to the existing 
building, rather than all new construction.
    Likewise, GSA worked with the courts to rethink the 
proposed annex at the U.S. courthouse in Greenbelt, Maryland. 
Congress approved and appropriated $10 million for what was 
envisioned as a $100 million, 263,000-square-foot expansion. 
Based on the judiciary's courtroom sharing policy, GSA 
developed a new prospectus for a comparatively modest $15 
million renovation, and we have submitted that prospectus to 
you.
    And let me note that both San Jose and Greenbelt came off 
of the 5-year list not because of the new AMP process, but 
because of the ongoing application of courtroom sharing to 
projects on the list.
    A third example is Mobile, Alabama, which tops the U.S. 
courts' most recent 5-year plan, and where cooperative efforts 
between GSA and the courts to reduce space requirements and 
increase courtroom sharing have resulted in significant 
projected savings. The 5-year plan originally had proposed a 
stand-alone new courthouse estimated at $190 million. We are 
now proposing instead to modernize the 1932 courthouse and 
expand it with an annex that enhances the useful and symbolic 
meaning of the original historic building.
    GSA is currently working with the courts to revise and 
reduce the requirements for every courthouse on the 5-year 
plan, and we look forward to keeping this committee apprised of 
our progress on these efforts.
    The third point I want to make is that GAO's latest report 
on courtroom construction largely ignores the central role that 
GSA plays in analyzing the court's requirements and evaluating 
alternative options, including our detailed feasability studies 
and prospectus submissions to Congress that provide 
comprehensive project cost estimates. The GAO report uses some 
questionable cost figures, figures that in some cases fail to 
reflect the very right-sizing of proposed projects that I just 
described.
    The analysis is flawed in other ways, as well. For example, 
GAO faults the court's 5-year plan for omitting the long-range 
projected rent costs for proposed new courthouse buildings. 
Capital plans do not normally include such costs. Rent costs 
should inform the capital plan, but they are not normally part 
of a capital plan. But leaving that issue aside, GAO looks at 
only one side of the ledger, ignoring the savings in rental 
costs to agencies now housed elsewhere that would backfill a 
new courthouse or Federal office building.
    The fourth and final point I want to make this morning is 
that while GSA is very supportive of GAO's efforts to encourage 
more efficient management of the courthouse program, and we 
have incorporated GAO's recommendations from--in past reports, 
GSA does not support the moratorium that GAO calls for. The 
projects on the court's 5-year plan have been subjected to 
extensive planning and analysis by GSA and the courts, 
including our ongoing efforts to downsize these proposed 
projects to improve their efficiency, to meet courtroom sharing 
requirements, and to utilize existing buildings. It would be 
imprudent to postpone these investments. A moratorium would 
undermine GSA's ongoing maintenance of the Federal inventory, 
and our mission to provide the courts with safe and secure 
courthouse space.
    In closing, GSA will continue to collaborate with the 
courts to reduce the cost of courthouses, while maximizing 
their functionality and civic benefit. On behalf of GSA and the 
Public Building Service, I welcome the committee's oversight of 
this essential program.
    I appreciate being here this morning, and I am pleased to 
take your questions. Thank you.
    Mr. Shuster. Thank you, Dr. Robyn. With that, I will start 
the questioning off.
    Mr. Goldstein, I think it is important that we understand 
the context of why we are here. We have the ability of 
hindsight, which they say is 20/20. And so I would like to know 
what the GAO found out when you looked back over the last 33 
courthouses that the GSA built, what did the GAO learn from 
looking at those that had been built in those--and again, I 
think the number is 33 that you looked at.
    Mr. Goldstein. Thank you, Mr. Chairman. As you indicated a 
little bit in your opening statement, sir, we issued a report 
in 2010 that looked at the 33 courthouses built since 2000, and 
we found that, of those 33 courthouses, they were overbuilt by 
3.56 million square feet for 3 different reasons.
    The first reason was that the GSA had built many of them 
beyond their authorized square footage. That authorization is 
provided by the United States Congress in the authorization.
    The second reason is that because a lot of the judgeships 
had been projected improperly over time--and, in fact, they 
built space for over 119 judges that never materialized. And so 
you have courtrooms--119 courtrooms, for the most part--and 
chamber space for those judges, as well.
    And the third reason is because, despite admonitions from 
this committee and others, the judiciary had not agreed to 
share courtrooms at the district level for judges. They do, to 
some extent, at the bankruptcy, magistrate, and senior judge 
level today, but we found that you could have built 40 percent 
fewer courtrooms--40 percent fewer--had you allowed a sharing 
scheme. And so those were the main reasons.
    If I may add one point, sir, which goes to the Commissioner 
of Public Building Service's comments, I am quite surprised. 
The Public Building Service and GSA had 30 days, as did the 
judiciary, to return to us any comments they had on our report. 
We received only a couple of very technical comments. This is 
the first time GAO has heard any of the comments criticizing 
our report. And, frankly, in the years that I have been doing 
this job, I have issued about 500 reports. This has never 
happened before, in my experience.
    Mr. Shuster. Dr. Robyn, can you respond to that? Why didn't 
the GSA respond to the GAO?
    Ms. Robyn. Well, I believe we did give them cost--correct 
cost figures--what we thought were better cost figures. And 
they did not--and GAO did not use them, they used numbers that 
they got from the courts. There is a little bit of an apples 
and oranges issue there, in what they are using, what is on the 
5-year plan, and is the total cost of a construction project.
    But, for example, in Mobile, the GAO report uses the 
figure, the construction cost, of $219 million. That is a very 
old number. That reflects the size of the project that was 
authorized by this committee 10 years ago. We have right-sized 
that project so that it will be an annex, rather than a new 
courthouse, substantially smaller, and about half of that cost. 
That isn't reflected in the GAO report.
    Mr. Shuster. Does the GAO have those, that plan?
    Mr. Goldstein. Whenever we--we have, obviously, disputes 
about numbers all the time with the judiciary and with GSA. For 
many years, the GSA--the GAO has been doing this work. We 
always received--these are not GAO's numbers. We always get 
courthouse numbers from GSA and judgeship numbers from the 
judiciary. The only thing we did to the numbers we had, which 
were provided by them, was to amend them for inflation 
purposes. But we do not derive our own numbers. Whatever 
numbers they give us are the numbers we use.
    Mr. Shuster. And, Dr. Robyn, the third problem that GAO 
identified was that cause the overbuilding was that the GSA 
often exceeded congressional authority. I know you haven't been 
there for the last 10 years----
    Ms. Robyn. Right, yes.
    Mr. Shuster [continuing]. But we really need to understand. 
Why did the GSA, over the past several years, past decade or 
so, exceed congressional authority, when under the Public 
Buildings Act the administrator is not able to exceed 
authorized cost by more than 10 percent?
    Ms. Robyn. Let me make two points in response to that. 
First of all, I want to distinguish what we have been doing in 
the last couple of years, where there has been a strong effort 
to right-size the projects on the court's list, to work with 
the courts to reduce requirements in light of the court's new 
courtroom sharing policy, and our desire to take advantage of 
existing courthouses.
    I feel passionately about the need to preserve our historic 
courthouses. And I think GSA and the courts were too quick to 
embrace the idea of building a shiny, new courthouse and not 
preserving the existing courthouse. So there is--we have been 
doing things in a different way the last several years.
    But I also want to say there is a long--there is a history 
here of disagreement, strong disagreement, with GSA's--I'm 
sorry, with GAO's methodology on the 2010 report. And that was 
a--there is an appendix that is longer than the GAO report 
which contains the GSA response and the court's response. And I 
want to just summarize, in three bullets, the testimony of my 
predecessor in 2010 on that report.
    GAO has used a space measure that assumes upper space in 
building atriums is included in the gross square footage of an 
asset. That is a key point, because courthouses have large 
atriums. And how one treats what is called void space, or that 
atrium space, is critical to the calculation of square footage. 
GAO compounded this----
    Mr. Shuster. So I understand----
    Ms. Robyn. Yes.
    Mr. Shuster [continuing]. You are including square footage 
up in the atrium?
    Ms. Robyn. GAO included----
    Mr. Shuster. GAO included that?
    Ms. Robyn [continuing]. The square footage----
    Mr. Goldstein. Yes, Mr. Chairman, that was GSA's policy 
since 2000. All we did was quote back GSA's own policy to them. 
And we have repeated this to GSA numerous times, to Mr. Peck, 
and everyone else at GSA now since 2010. This is GSA's own 
policy. I sat here before this committee, Ms. Norton remembers 
this, and held up that policy on numerous occasions. It is 
GSA's own policy.
    Mr. Shuster. Dr. Robyn?
    Ms. Robyn. My understanding is that GAO applied--that our 
policy, which--this gets complicated, but we instituted that 
policy of counting that space in 2005. We have since changed 
that policy. We don't count it now. We typically base our 
practice on BOMA, the Building Operators and Managers 
Association, policy. We--yes, sorry.
    Mr. Shuster. I understand that is their policy to include 
those open spaces as----
    Ms. Robyn. No. I think the latest--and this is quite new--
is to not include it. But I think the key principle here is to 
apply the policy that was in place when a courthouse was built, 
as opposed to applying a policy that was instituted later. 
That, I think, is the key, is the crux of the disagreement, 
that and the issue--and I will let Judge Ponsor speak to this--
of whether also applying courtroom sharing policies that came 
into place later to buildings that were built before the 
courtroom sharing policies existed.
    As you said, Mr. Chairman, hindsight is 20/20. If we knew 
now what we--if we had known then what we know now about 
courtroom sharing, we could have made a lot of these smaller. 
But that wasn't the policy.
    Mr. Shuster. Judge, do you care to response?
    Judge Ponsor. I just wanted to make a sort of personal 
comment with regard to the first element of GAO's criticism 
back in 2010. As Congresswoman Holmes Norton knows, we had a 
3\1/2\-hour hearing on that report in May of 2010, and that 
taught me that if you are going to be in a hearing before the 
congresswoman, no liquids after 8:00.
    [Laughter.]
    Judge Ponsor. We were here for 3\1/2\ hours. We went over 
that report, point by point. And the predecessor of Dr. Robyn 
strongly--strongly--contested the measurements made by GAO. It 
is quite a serious accusation by GAO to say that GSA ignored 
the prospectus limitations.
    My own personal experience was I built a new courthouse in 
Springfield, Massachusetts, that is I sat in on the planning. 
Once a week I sat down with the GSA people and with the 
contractor, visited the courthouse, and we were accused in 
their report of having overbuilt by 10 to 15 percent. I 
compared the prospectus numbers to the size of the courthouse 
by GSA. We went over by between 1 and 2 percent. I was 
astonished to see that we were accused of going over. We 
didn't. We built the courthouse with GSA. I assisted in that. 
And we did not overbuild.
    So the first area of criticism was very strongly contested 
at the hearing back in May of 2010.
    Mr. Shuster. Thank you. And one final question of Dr. 
Robyn. What are you prepared to commit to the committee today 
that the GSA will not overbuild, run with cost or size in the 
future?
    Ms. Robyn. Mr. Chairman, my predecessor did commit--and 
this is an example of where we have incorporated a 
recommendation. We have incorporated many of GAO's 
recommendations, but one was that we commit to not going over, 
or to notification of the committee if we are at risk of going 
over the size--the square footage specified in a prospectus. We 
already do that. We let you know if there is a risk of going 
more than 10 percent over cost, over budget. That is a 
statutory requirement. We committed 4 years ago--my predecessor 
did--to notification of the committee if there is a comparable 
risk of going over the square footage set out in the 
prospectus.
    Mr. Shuster. Thank you. With that, I recognize Ms. Norton 
for questions.
    Ms. Norton. Thank you very much, Mr. Chairman. Not to 
belabor the points of--about space, Dr. Robyn, you would 
conceded--in fact, Judge Ponsor, you too would concede that the 
atrium space was at least partly responsible for what GAO found 
to be overbuilding.
    Judge Ponsor. That appears to be true. They were counting 
that.
    Ms. Norton. So that is not occupiable space.
    Ms. Robyn. It is also not----
    Judge Ponsor. And----
    Ms. Norton. And, of course, when Congress authorizes--look, 
I am all for atriums. But when Congress authorizes space, is it 
not the case that it is thinking of occupiable space?
    Ms. Robyn. I think this gets into the technicalities of how 
space is counted----
    Ms. Norton. It is not very technical. Just----
    Ms. Robyn. Yes--no, no, no----
    Ms. Norton. Try sitting in an atrium, you know?
    Ms. Robyn. Yes. No, no, no. Look, I agree with that. I 
don't think--I think the policy we adopted most recently is the 
right policy, that one should not count----
    Ms. Norton. All right. So the policy now is that an atrium 
is not regarded as occupiable space.
    Ms. Robyn. Right.
    Ms. Norton. I hope we can still have atriums.
    Ms. Robyn. Yes.
    Ms. Norton. It seems to me you can have atriums without a 
lot of space, you just open up a ceiling.
    Ms. Robyn. Yes.
    Ms. Norton. So I am not--I want to go on record as being 
for atriums. But Congress has in mind, when it is talking about 
square feet, that there will be some feet such as storage feet 
that will not be occupiable, for example. And I must say the 
part of me that loves beauty and architecture and sees what an 
atrium has done in the courthouse here understands why atriums 
are desirable. But of course, we have got to be--we always have 
in mind what the Congress intends, and I think that is what the 
GAO report was based on.
    Now, well, let's look at what we have now, because we have 
been looking at this for a very long time. The GAO recommended 
that the district court judges--and they gave them two options. 
Either three district judges to two courtrooms, or pairing one 
district judge with a senior judge. Now, do you, Judge Ponsor, 
and you, Dr. Robyn, agree that those are reasonable 
requirements?
    Judge Ponsor. I will say, speaking personally, I do not 
agree that they are reasonable requirements.
    Ms. Norton. Well, of course, Judge Ponsor, you are not here 
in your personal capacity.
    Judge Ponsor. Exactly. And I made that caveat because it is 
Judge Robinson of the Committee on Court Administration and 
Case Management who articulates the formal Judicial policy with 
regard to courtroom sharing. That is not part of the 
jurisdiction of the Committee on Space and Facilities. So I 
really don't want to play games with you, but I do have to make 
that point.
    Ms. Norton. Well, if--just for the record, what is your 
personal objection?
    Judge Ponsor. I am trying to find a way to express myself 
in a balanced way. I don't think there is a single Federal 
trial judge in the country who would agree that a court with 
three active judges could provide the people of the United 
States the sort of justice that they are entitled to, 
permanently using just two courtrooms. It would----
    Ms. Norton. Regardless of the call, the amount of cases 
that a particular judge may have, you are making such a blanket 
statement as that? GAO didn't come to this conclusion without 
some study, Judge Ponsor.
    Judge Ponsor. Can I address that study? The study that came 
to this conclusion was developed by a man named Higgins, Steven 
Higgins. Steven Higgins had a BS in chemical engineering. He 
belonged to something called System Flow. We obtained a copy of 
the backup for their recommendation after your hearing, but 
before a hearing that following September before Congressman 
Johnson. He belongs to an organization called Systems Flow. He 
has a BS in chemical engineering. His studies have involved 
production of industrial soap, John Deere tractors, and 
extracting nickel from granite. Based on that experience, he 
told the judiciary----
    Ms. Norton. Based on that experience, you believe that the 
consultant did not observe--did not have data regarding judges' 
use of courtrooms?
    Judge Ponsor. I am sure----
    Ms. Norton. I mean I would trust a chemical engineer on 
lots of work, frankly, with that kind of background. But the 
first thing I would ask him is how he reached those 
conclusions, not what his training was in.
    Mr. Goldstein, how did he reach those conclusions?
    Mr. Goldstein. It is sort of amazing that we are kicking a 
dead horse here several years after we began this process. I 
thought we were talking about new courthouses today.
    But anyhow, the process that we used was vetted inside of 
GAO/outside of GAO by independent analysis and by the company 
that made the modeling software that we used. Whether or not 
the individual had a bachelor's in chemical engineering or a 
doctorate in methodology, what that individual was doing was 
putting numbers that came out of the Federal judiciary center, 
which showed that, on average, courtrooms are used by a 
district judge less than 2 hours a day--less than 2 hours a 
day--and that includes time which was unscheduled, and which we 
included as scheduled anyhow, to be sure that we were using 
conservative statistics.
    They came up with a statistically valid model that showed 
that you could figure out how to distribute judges to ensure 
that all courtroom activities were still held. This is not 
rocket science. It is done for hospital emergency rooms, it is 
done for modeling nuclear bombs. You can do this for any 
variety--number of things. The point I would----
    Ms. Norton. Well, I asked the question because we had 
resistance before, and we are not going to tolerate resistance, 
and certainly not based on an attack of the credentials of the 
consultant.
    Judge Ponsor, you should know that the Congress relies very 
heavily on GAO as an objective analyst. And, you know, I 
clerked for a district court judge. I know that judges like to 
start their--you know, they all like to start their courtrooms 
at 9:00, at 10:00. You know, somebody may have to start their 
day at 11:00 or 1:00, and they may have to live in the real 
world. So we have no alternative but to rely on what the 
objective analyst tells us is possible, and to hold the courts 
to that data.
    Now, you know, I am really mystified as to why the courts 
would want to proceed with courthouses without going through 
the AMP process, because they have gone through it and made 
changes. And we cite some of those changes, some of those 
modifications close to here, in Greenbelt. Here they decided, 
well, yes, we are going to use sharing that is not required, 
and that the courthouse was entitled to only one courtroom. 
They also chose to use the funds for the design of a new annex 
to modify the existing buildings. There were also changes in 
San Jose, California.
    So, here, process has been used to good effect, saving 
money. Why would anybody not want to apply that same process to 
the other courthouses with the prospect of making similar 
savings?
    Judge Ponsor. If that question is directed to me, I would 
be happy to answer.
    Ms. Norton. It is to you, Judge Ponsor.
    Judge Ponsor. All right. I think I have two responses to 
that, and I am going to try to be as clear as I can.
    The changes that occurred in Greenbelt and San Jose, as Dr. 
Robyn has already stated, were not in response to a re-analysis 
of the project under AMP. Repeat, they were not in response to 
a re-analysis of the project under AMP. The Greenbelt project 
was re-analyzed because the tenant, the United States Attorney, 
moved out, creating more space. We are constantly looking at 
projects, not through the AMP process, but just through common 
sense, and talking to the judges. It created more space, we 
were able to reconfigure it. The court came to us and said, 
``We can manage without a new facility.''
    In San Jose we did what you asked us to do. We applied the 
courtroom sharing policies, which now apply, incidentally, to 
half of the judges in the Federal judiciary. Bankruptcy judges, 
senior judges, and magistrate judges make up half of the 
personnel of our Federal judiciary. All of them are now subject 
to a courtroom sharing process. And this has just come into 
being in the last 4 years. We have really listened to you. We 
may not have moved as far as you would like us to move, but we 
have responded.
    In any event, we looked at San Jose, we looked at the 
courthouse, we applied courtroom sharing, and we realized that 
we do not need as big a project as we thought. We worked with 
the court, and that project was amended, and it saved the 
taxpayers money. I think we deserve some credit for doing that. 
We are looking alertly at the projects. But I want to make it 
clear the application of the AMP process had no relation----
    Ms. Norton. Well, what does that mean, that you--look: If 
we have to wait for the U.S. Attorney to move out to get 
reconsideration of these other eight projects, and you want to 
ignore the AMP process, are you telling this committee that you 
are ignoring the AMP process and you are going to use your own 
process, which is to wait to see if somebody moves out, because 
that is just as good?
    Judge Ponsor. No, no, that is not----
    Ms. Norton. Are you saying you will use the AMP process on 
the other projects or not, Mr.--Judge Ponsor?
    Judge Ponsor. I will be very clear. Two things. One, we 
have applied the AMP process to four----
    Ms. Norton. You have applied another process that is not 
the same as the AMP process. This committee has asked for the 
AMP process to be applied. Are you willing to use the process 
this committee has required to be applied?
    Judge Ponsor. No, we would prefer not to. That is my direct 
answer.
    Ms. Norton. You are in contempt of this committee.
    Judge Ponsor. Certainly not. You have asked me to give you 
an answer to your question, ma'am, and I am giving----
    Ms. Norton. Are you willing to use the AMP process that 
this committee authorizes to be used in order to authorize any 
new courthouses?
    Judge Ponsor. Yes----
    Ms. Norton. Yes or no?
    Judge Ponsor. The answer is I would hope that I could 
persuade you not to require us to do that. If you require us to 
do that, then I guess we will have to do that. But it would be 
a terrible mistake, in my opinion.
    Mr. Shuster. I thank the gentlelady for her questions, and 
with that, recognize Mr. Webster for questions.
    Mr. Webster. Thank you, Mr. Chairman. I am not sure--I have 
an engineering degree too, and it may not qualify me to ask a 
question, but I have one, if I could do that.
    Mr. Shuster. Yes, sir.
    Mr. Webster. My question would be, I think, Mr. Goldstein, 
is the AMP process--does it in any way include the cost of the 
process in its--in the way it rates or scores a particular 
project?
    Mr. Goldstein. The cost of the process?
    Mr. Webster. No, the cost of the project itself.
    Mr. Goldstein. It does have some project costs, yes, it 
does. It does not include all of them, which is among the 
reasons we hope that more information might be provided.
    Mr. Webster. Did you in any way look at the actual cost per 
square foot, or something like that? Did you do any analysis of 
that?
    Mr. Goldstein. That was not within the scope of this 
particular project, sir. We certainly have looked at numerous 
courtrooms over the years, and the cost of those per square 
foot.
    Mr. Webster. Would you, just in your opinion, if 
functional/frugal was a 10 and elaborate was a 1, where would 
you rate them?
    Mr. Goldstein. Where would a rate these projects?
    Mr. Webster. Yes.
    Mr. Goldstein. I think they are probably all over the map, 
sir.
    Mr. Webster. All over the map?
    Mr. Goldstein. Right. I think some are----
    Mr. Webster. There is no real criteria that you found to 
determine whether or not we would just be trying to build a 
functional, frugal courthouse that would still be able to 
produce justice for people, or it could be some elaborate--with 
lots of roof lines and cuts and angles and atriums and high--
there is no real standard for that?
    Mr. Goldstein. One of the things we looked at was the 
criteria that the AMP process has. We are pleased, you know, 
quite honestly. We don't always compliment the judiciary on its 
process, we recognize that. But this is an instance where we 
believe the judiciary has been moving very much in the right 
direction. And the criteria that it has developed in 
consultation with GSA is much clearer and cleaner than the 
older process that was in place previously. It is not a 
district approach, it is a comprehensive, nationwide approach. 
There are very specific criterion, and there are AMP business 
rules which the judiciary uses to specifically say when they 
will go out for new construction and when they will not. So we 
are very pleased with the direction that this process is going 
in.
    Mr. Webster. Well, once that process is done, it says--I 
mean there is a needs, I assume, based on certain criteria 
other than just the cost. There is a needs determined through 
that process that says, ``We need more space, we need to 
expand, and we have too much for the particular area,'' city, 
or whatever it is. That is what determines whether or not there 
would be a project.
    But once that is determined, is there any sort of model 
that they go by on what the cost would be for that new 
facility?
    Mr. Goldstein. Sure. There is something called the Design 
Guide--and that has been in place for a number of years--by 
which the judiciary and GSA work together. It has standards in 
it: the size of a courtroom, the size of a chambers, things 
like that, and other kinds of modifications. And if they wish 
to go beyond Design Guide standards, they need to go to the 
Judicial Conference in order to get a waiver.
    Mr. Webster. OK. So maybe I have the question for the GSA, 
then. What--how do you determine--I mean I have heard you say, 
``We have done a lot of cost reduction, we have decided to 
remodel instead of rebuild.'' What kind of process do you go 
through? Once there has been a determination that there is a 
need, what do you do?
    Ms. Robyn. We typically work with a--we do a competition 
for an architecture and engineering firm, and select one to do 
a very detailed feasibility study on different ways to meet 
that requirement. This is the feasibility study for Des Moines.
    Mr. Webster. Is that subjected to any sort of criteria in 
that you pick one that has done certain projects? Or is it done 
on a cost basis?
    Ms. Robyn. You mean the selection of the A&E firm?
    Mr. Webster. Yes.
    Ms. Robyn. That is--it is a competitive process based on--
it--their cost and their qualifications.
    I think I may be getting beyond my level of knowledge here, 
but I think, like many competitions that we do to select 
experts, it is a combination of their cost and their 
qualifications.
    Mr. Webster. And this will be the last question.
    Ms. Robyn. Yes.
    Mr. Webster. Is there any guideline that determines that--
Mr. Goldstein just said it is all over the board--between 
whether or not you would be focused on something that is 
functional and frugal or something that is elaborate?
    Ms. Robyn. Well, I believe that the--I think we don't do 
very many things that are extremely high--well, the cost of a 
project, the square-footage cost, and that is, I think, a very 
good thing to focus on, that is subject to a lot of analysis. 
And we submit--we have a very rigorous process of going to OMB 
and then the committee, and lots of back and forth over the 
proposed cost of a project and, you know, taking into account 
cost per square foot and other attributes of the project. So 
that is subject to a lot of vigorous discussion with this 
committee, with OMB.
    So, I think that is--you don't see many elaborate projects 
because of all the very appropriate discipline that that 
process is subject to. I think you do see some--you know, we 
have tried in recent years to have--to build Federal buildings 
that are not ugly, you know, that are not like the J. Edgar 
Hoover Building. We went through a very bad period in the 1970s 
and the 1980s. We built a lot of Federal buildings that have--
that don't stand the test of time.
    And we subject everything to something called ``design 
excellence,'' so that we get basic designs for courthouses and 
other Federal buildings that are buildings that we can be proud 
of, buildings that stand the test of time, the way the 
buildings that were built in the 1930s do. That does not 
necessarily mean that they are elaborate and expensive 
buildings. And an atrium--and I share Congresswoman Norton's 
love of atriums--that is unusable space, but it may very well, 
by bringing in daylight, reduce the energy consumption of a 
building.
    So, it is--you know, you have to be careful not to assume 
that something that looks beautiful necessarily is a sign of an 
elaborate, as opposed to a functional and frugal, building.
    Mr. Shuster. Thank you, Ms. Robyn. Appreciate that.
    Ms. Robyn. Sorry.
    Mr. Shuster. The gentleman's time has expired. Before I 
recognize next Ms. Hahn, I was mistaken. Mr. DeFazio has 
appeared. So--but before I recognize Mr. DeFazio, I just want 
to say I am going to turn the chair over to Mr. Barletta who is 
the chairman of the subcommittee and done a lot of work on 
this.
    And again, this is a very difficult situation. This is--for 
me, it is all about the taxpayers and making sure that they are 
getting their best bang for their buck. As I said before, you 
could administer justice with a piece of plywood and milk 
crates. I mean I understand there are security reasons and all 
that, but--we are not telling you how to administer justice, 
but we have got to take our responsibility serious here, in 
making sure that every dollar, every precious taxpayer dollar, 
is spent in the best way. And if judges have to share 
courtrooms and reduce the size of courts--we do it here in 
Congress.
    This building was built 50 years ago, and it is the last 
congressional building that--office building that we built. And 
if you go to our offices, which I said in the meeting to the 
Judge earlier--we got people crammed into corners and what used 
to be closets. So, again, we are at a serious juncture here, 
with trillions of dollars of debt and deficit.
    So, again, with that, I am going to turn the chair over to 
Mr. Barletta, and recognize Mr. DeFazio for 5 minutes for 
questions.
    Mr. DeFazio. Thank you, Mr. Chairman. I was at another 
hearing and I have got to go back to that, but I appreciate--
was here earlier.
    So, I have a couple of questions. On the 10 proposed 
courthouses, as I read the GAO report, only 2 have clearly been 
subjected to the AMP process, is that correct? Can anybody 
answer that?
    Judge Ponsor. I am Michael Ponsor, and I am here for the 
Space and Facilities Committee. We disagree with that. Our 
position is that four of the projects----
    Mr. DeFazio. OK. So 4 of 10, 6 haven't been. How did you 
come up----
    Judge Ponsor. Four----
    Mr. DeFazio. How did you come up with the scores, if they 
weren't subjected to the AMP process? Are those scores under 
the old process?
    Judge Ponsor. Yes.
    Mr. DeFazio. OK. So we had some big problems with the old 
process, and that is why we adopted a new process. So I don't 
see how you can propose to go forward under those terms. I 
think you are--now, here is a another question which probably 
goes to GSA.
    I moved into our new palace, beautiful building, but--and 
my entire staff and I occupy a space that is about the size of 
a judge's library, a little bigger than a robing chamber for 
the chief judge. I have observed, and I walk around this 
building on a lot of days. There is no one in the building. 
Huge building, beautiful building, but there is no one there 
except the workers. So, I question the criteria that led us to 
build in this form, in this size, in this area.
    But beyond that, when I went to move in, because we very 
much wanted security, which we didn't have--we had been above 
bankruptcy in our previous building and they would provide 
security as needed, but they moved over--so we moved. But I saw 
this absolutely astronomical extortionate rent that you wanted 
per square foot, and we managed to negotiate that down to the 
average for class A office space in the area, and so we moved 
in. Thank you.
    But, my question is, are the judges in the court system 
paying that extortionate per-square-foot rent for all of the 
tens of thousands of interior space that is not usable? The 
grand design? Right next door to my office is the clerk of the 
court. The clerk of the court's office, there is about six 
people in there. They have sort of set it up so they have 
multiple little living room sitting areas, and all the unused 
space in the back. It is about 5 times bigger than my office, 
which is occupied by 10 people. And there is six people in 
there. It might be more crowded.
    So, is the court paying that square foot for all that 
unused space? And, if so, how much of our annual budget is 
going to pay rents in these sorts of buildings?
    Ms. Robyn. The court's annual rent to GSA is on the order 
of $1 billion. And I have forgotten now exactly how many 
million square feet that is. They are our first--our second-
largest Federal tenant. We----
    Mr. DeFazio. And now they have the highest per-square-
foot----
    Ms. Robyn. We have a--well, we have--you know, as you can 
imagine, we have had some interesting debates about this over 
the years. We--our--I would take issue with your use of the 
word ``extortionate.'' Our rents are----
    Mr. DeFazio. No, it was extortionate. I could have moved 
into class A, brand new office space in Eugene and hired 
private security, and it would have been less than the rent you 
wanted to charge me. And we said, ``Why is it so high?'' They 
said, ``Oh, you are paying for all the interior space,'' which 
is not a space which is--as you described an atrium that 
provides heat-gain or whatever, it is just a grand space on the 
inside, where you walk around, it kind of echoes, and it is 
very empty.
    So, you wanted me to pay for that, and I said, ``No. You 
want me as a tenant, I am not paying for that''----
    Ms. Robyn. Yes.
    Mr. DeFazio [continuing]. ``But I would be happy to pay 
class A office space.'' So, yes, I would say it was 
extortionate. So we can disagree, but no sane person would pay 
that rent who wasn't--but the judges are paying that much, 
apparently. So I would find that--and what is an amortization 
period for a courthouse, in terms of rent?
    Ms. Robyn. I don't know.
    Mr. DeFazio. Twenty, thirty years? I mean----
    Ms. Robyn. Yes, something like that. I mean I think we have 
a methodology that we use on some of these buildings. And I 
don't--you know, I don't want to say that we would----
    Mr. DeFazio. Mr. Goldstein has a quick response. I don't 
have much time left. Mr. Goldstein?
    Mr. Goldstein. I believe it is 30 years. Most of the 
courthouses, you are absolutely correct, sir, they--the rent is 
about $1 billion a year for the judiciary to--for GSA space. 
And the--many of these courthouses are--they are rented on 
return of investment. It is an ROI process over the life of--
the expected life of that building.
    Mr. DeFazio. OK. So--but fully amortized in 30 years?
    Mr. Goldstein. Yes, sir.
    Mr. DeFazio. OK, thank you. I think that would be another 
subject to look into, Mr. Chairman, which is how much unused 
space are they paying how much rent for within the existing 
system, and what that costs the taxpayers on an annual basis.
    Mr. Barletta [presiding]. The Chair recognizes Mr. Perry 
for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman. And thanks to you folks 
for being here and answering some questions for us. I have the 
privilege of representing the folks of--the good folks of 
Harrisburg, Pennsylvania. And we have got a courthouse project 
that goes kind of almost as long as I can remember. But I just 
want to make sure I set the table right so I got my mind 
wrapped around this correctly.
    Is it the--you folks, Mr. Ponsor, that suggest that we need 
a new courthouse, and then GSA constructs it per the 
guidelines, whatever they be at that time? Right?
    Judge Ponsor. Essentially, yes, that is correct. We do a 
long-range facilities plan for the district, we do an 
evaluation of the urgency for that courthouse, either pursuant 
to our pre-2008 or our post-2008 AMP process, and then we refer 
it to GSA for a feasability study. And then, if GSA recommends 
a new courthouse, it goes to the Judicial Conference for 
approval.
    Mr. Perry. OK. So GSA has to recommend. Is that correct, 
Dr. Robyn?
    Ms. Robyn. Yes.
    Mr. Perry. OK. So, with that, we have got 38 of 43 
properties now have been purchased for the construction of a 
new courthouse, and we have spent about $25 million. And, as I 
understand it, we are moving forward with design right now. But 
yet there is kind of almost no plan to construct this 
courthouse, based on it not being in the criteria, or under the 
new AMP criteria, which, you know, as a tax-paying citizen and 
somebody that is not sitting here, anybody else would say, 
``What in the heck are you folks at the Federal Government 
doing,'' I think.
    Is there a way to implement the AMP--or does the current 
AMP program implement some of the facets of the old program, so 
that you are not duplicating the effort to determine the size 
and the scope of the courthouse? Is that in there, or not?
    Judge Ponsor. It is in there. And this is the point that I 
was trying to make, perhaps clumsily, before. Harrisburg is a 
courthouse project that was not evaluated under the AMP 
process. And I was talking to Congresswoman Norton and we were 
having an interesting exchange, because I was taking the 
position that we would prefer not to have to go through, with 
Harrisburg and the other projects that haven't been through the 
AMP process, an AMP process.
    The reason that we would prefer not to do that is that we 
are satisfied that the process that we went through in 
selecting Harrisburg for the 5-year plan appropriately 
identified Harrisburg as an urgently needed project. The 
repetition, or the overlay of the AMP process, would just be a 
further analysis that is likely to only confirm the need to 
have Harrisburg on our 5-year plan. And the repetition of the 
AMP process would result in an additional delay, we estimate, 
of a number of years. It could be as many as six--certainly as 
many as two--that would be added to the process for the 
citizens of Harrisburg who have already waited, I think, since 
the late 1990s----
    Mr. Perry. Right.
    Judge Ponsor [continuing]. For their courthouse, where 
there are already parcels of real estate that have been 
purchased for the construction of that process. It would just 
slow things down.
    We recognize that in this fiscal situation the President is 
not putting new courthouses into his budget. But the fiscal 
situation will not last forever. And when the time comes that 
we are again able to build new courthouses, we believe that we 
have adequately assessed the need for the courthouse in 
Harrisburg. Certainly San Antonio, Anniston, Chattanooga, and--
--
    Mr. Perry. Excuse me, Doctor, let me just follow up here. 
So we have spent $25 million. And according to the AMP, 
Harrisburg doesn't fall within the criteria. And you folks know 
this stuff, we don't, so we are taking, I guess, your lead on 
that. But we have got this money. We don't want to waste the 
taxpayers' money, and we know this is important. We don't know 
if it is right-sized or not. That is GAO and GSA's 
responsibility, I think.
    But what do we do from here? Do we walk away from our $25 
million investment? Do we engineer so that it is right-sized, 
so--as courtroom sharing, as has been enumerated in AMP? What 
is the plan? What can we expect in Harrisburg from you good 
folks that are trying to do the right--and we want the 
taxpayers' money to be spent wisely.
    Ms. Robyn. Sure, yes. We will--I mean that is one of the 
ones that--there is a lot of history on Harrisburg that I 
don't--that I am not aware of. Judge Smith just alluded to me 
on some issues over the choice of a site. So I apologize, there 
is a lot I don't know about that project. But I would agree 
with Judge Ponsor that we think it is one that is appropriate 
to remain on the list. There are circulation issues with secure 
circulation in the existing building. There is a lack of space 
for U.S. Marshals.
    We are, by the way, going to backfill the existing building 
with other Federal tenants that are in leased space in 
Harrisburg, so we think there is a savings there. But this 
project, like the others on the list, is subject to our ongoing 
process of right-sizing, ensuring that we can do it as 
inexpensively as possible.
    Mr. Perry. Thank you. And as my time has expired, Mr. 
Goldstein, do you have any statement regarding Harrisburg, 
particularly, from the GAO's perspective?
    Thank you, Mr. Chairman.
    Mr. Goldstein. No, at the end of the day it is really a 
policy decision whether to go forward or not. Our sole point is 
you need to make sure that the priorities that are on that plan 
are really the courthouses that you need to build. And the 
priorities on that plan continue to shift.
    And so, until you can understand what is really your most 
urgent priority, it makes some sense to wait and see, spend a 
little of money now, and not billions of dollars, and wait and 
figure out what is the best use of the Government's money at 
this point in time. That is all we are saying here.
    Mr. Barletta. The Chair recognizes Ms. Hahn for 5 minutes.
    Ms. Hahn. Thank you. So, I have one. So my bad story is 
from Los Angeles. And in 2000, Congress appropriated $400 
million for a 41-courtroom building in downtown L.A. But it had 
repeated delays, cost overruns, and then that project was 
ultimately canceled in 2006. Then, in 2011, GSA announced a 
revised plan for a smaller, 24-courtroom facility at the same 
site. And we are hoping construction will be completed by 2016. 
So, once this building is hopefully completed on time, on 
budget, it will have taken 16 years from the moment GSA 
originally requested funding for this project to the time that 
it is to be completed.
    The judge commented briefly on one thing in Harrisburg that 
you thought would prevent some delays, but what else can you 
tell us that we have got in place now that will prevent these 
kinds of really egregious delays, when and if we do begin 
constructing courthouses in the future?
    Judge Ponsor. Well, one of the things that we are very 
proud about--and I don't want to run away from it--is our AMP 
process. It is a good process. Mr. Goldstein and I have done 
battle many times--this is our third go-around here--and I have 
a great deal of respect for the GAO. We have, in fact, adopted 
a number of their recommendations, and I am pleased to hear the 
GAO say that they also feel that we are making progress with 
that. We have only had that since 2008. I mean we developed it 
in 2006; we started using it in 2008. We have a very good 
relationship with GSA right now.
    But the situation is--in my opinion, it is a fiscal 
problem, looking into the future, in terms of the new 
courthouses. I do think we can convince this committee. I hope 
we can convince this committee, as new projects become 
buildable, fiscally buildable, that we are doing it in a 
responsible way, that we are building frugal, sensible 
courthouses that are also a tribute to the community and to the 
values of the courthouses----
    Ms. Hahn. So you think the AMP program will take care of--
--
    Judge Ponsor. It certainly will help.
    Ms. Hahn [continuing]. The delays and cost overruns that we 
saw in Los Angeles?
    Judge Ponsor. Yes. And we will be folding into the cost--
the courtroom sharing policies that we have adopted already. We 
have taken the recommendation of GAO to not build for projected 
courtrooms. Even though we believe they will be necessary, we 
don't put them into our plans now.
    And I have honestly tried to figure out what the heck 
happened in L.A., and I think--I don't think you could----
    Ms. Hahn. What the heck did happen?
    Judge Ponsor. I don't think anybody could replicate it. It 
is its own story.
    But the only thing I can say is I remember being here for 
the hearing in May of 2010, and Congressman Diaz-Balart, who 
was the ranking member at that time, talked to me about this $1 
billion courthouse in Los Angeles, and I said to him--and I 
reread my transcript before I came in here--it was probably the 
simplest, most direct thing I said was, ``That isn't going to 
happen.'' And it didn't happen. And we heard you, and we are 
building the facility there within the funds that were 
appropriated by Congress. And I hope there will be no more 
L.A.'s in the future. We will do everything we can----
    Ms. Hahn. Well, there could be a lot of L.A.'s in a lot of 
other issues in this country. Good L.A.'s.
    Judge Ponsor. Yes.
    Ms. Hahn. Well, thank you. But I do think that is 
frustrating for taxpayers, not just how we spend our money, but 
taxpayers want to know that, you know, when we have 
appropriated money, when we have requested it, that it actually 
does happen in a timely fashion. I think that is what 
frustrates people the most, is to see these kinds of really 
unbelievable, egregious delays in these projects. There is just 
really no excuse for those.
    Did you have anything to say on preventing----
    Ms. Robyn. The only thing I will say is you used the term 
``cost overruns.'' There will be no cost overruns on the L.A. 
courthouse. It will come in on budget, $400 million. It will 
not cost a dime over that.
    Ms. Hahn. Thank you.
    Mr. Barletta. Mr. Goldstein, in your previous report, you 
identified two major causes of overbuilding in Federal 
courthouses: the absence of courtroom sharing and the flawed 
projections of future judges. Do you believe the judiciary's 
new process adequately solves these problems?
    Mr. Goldstein. I think it is a start. We are pleased, as 
Judge Ponsor mentioned, that the current 5-year--when they are 
now putting new projects on the plan, that they are not 
including projected judgeships. As we indicated from the last 
report we did, of those 33 courthouses from 2000 to 2010, there 
were roughly 119 judges that had been projected that they would 
have that they did not have that they built space for. So we 
are pleased that that process is changing.
    With the issue of sharing, we still differ. We do believe 
that the data that was compiled by the judiciary itself that we 
modeled shows an ability to share at greater levels than they 
are doing today. We did not, however--and it is important to 
note this--recommend that they adopted our model or any model. 
We simply recommended that they look into doing a better job at 
sharing at whatever level they felt was necessary. We simply 
developed a model that we would help to engage in conversation 
and discussion, and we certainly did.
    Mr. Barletta. Judge Ponsor, as you pointed out in your 
testimony, the judiciary adopted sharing policies for senior, 
magistrate, and bankruptcy judges, and you highlight that they 
are being implemented. How many of the 446 Federal courthouses 
fully comply with the courtroom sharing policies now?
    Judge Ponsor. I can't give you a number. I cannot give you 
a number. I know that we are looking at it, and I certainly 
know that, prospectively, and with regard to renovations, we 
are looking at it carefully. We are looking to try to get 
entities that are in leased space back in the courthouses, and 
we are applying courtroom sharing to them. But I cannot give 
you a number.
    Mr. Barletta. How many Federal judges are currently 
sharing? Do you have a number?
    Judge Ponsor. Well, there are about 2,000 Federal judges in 
the country. Trial judges, such as myself, U.S. district court 
judges, appeals court judges, and Supreme Court justices make 
up about 1,000 of those. Those 1,000 judges, under current 
Conference policy, are not sharing courtrooms. Appellate court 
judges do, because they sit in panels of three.
    There are bankruptcy judges, senior judges, and magistrate 
judges who make up the other 1,000 of our cohort of judicial 
officers in the Federal judiciary. They are all subject to the 
policy. That doesn't mean that they are all sharing, because 
many of them are in courthouses that have enough courtrooms, so 
they don't need to share. We are not turning out the lights and 
locking courtrooms up, and not letting people into the 
courtrooms when they are already there. So, there is a great 
deal of sharing.
    I guess I would say one thing. I don't know how your branch 
of the Government works in terms of changing deeply rooted 
patterns that they have been following for hundreds of years. 
It is a little slow. I know that you are frustrated that we 
aren't moving fast enough on courtroom sharing. But from where 
I sit, since 2008 we have put half the judiciary under 
courtroom sharing policies. That is at least progress. And we 
are pleased that we are doing that, we are implementing it.
    I will tell you, you know, nothing is more bearable than 
someone else's pain, so we might not get any sympathy for it, 
but imposing courtroom sharing on senior judges and bankruptcy 
judges and magistrate judges was hard. It was hard. It took a 
lot of work. Perhaps we don't deserve any credit for it. But it 
wasn't nothing. It wasn't nothing. We heard you, we knew you 
wanted us to courtroom share, and we took initiatives that 
brought half of the judiciary, just in the last 5 years, under 
courtroom sharing policies that will be applied consistently in 
the future.
    I think you were the inspiration for that--your committee. 
I have to say--you can call it nagging, you can call it 
encouraging, you can call it inspiring, or you can call it 
whatever you want--we heard you, and we adopted those policies, 
and we are continuing to think about the problem.
    We aren't ready yet, the Judicial Conference has not yet 
taken the step of insisting on courtroom sharing for active 
district court judges. And I know that is frustrating to 
members of the committee. I recognize it and I respect it. But 
it is difficult for us. We have made a lot of progress, and I 
hope that we will get at least a glimmer of sympathy for the 
work we have put in doing that, just in the last 4 or 5 years.
    Mr. Barletta. Well, I can tell you, change doesn't come 
easy on this side, either. I certainly understand what you are 
saying.
    Dr. Robyn, how many courthouses are currently vacant?
    Ms. Robyn. I don't--that is a good question. I don't know 
the exact number. I think your Dyer is certainly one in Miami. 
I don't believe there are a large number. I think it is a 
relatively small number, but I don't have the exact number.
    Mr. Barletta. Can you provide the committee with a list, 
location, and any plans for their reused or disposal?
    Ms. Robyn. Sure, yes.
    Mr. Barletta. OK, thank you. The Chair recognizes Mr. 
Williams for 5 minutes.
    Mr. Williams. Thank you. First of all, I would like to say, 
just a point of reference, I had the same issue in Texas that 
we heard with trying to rent space in a Federal building, and 
you might want to take a look at your rent factors. We would 
love to be there.
    Dr. Robyn, I just want to also reiterate simply I think 
that all of--as you certainly said, that it is going to be 
important on these cost overruns to come back and see Congress. 
In the private sector, if we have a cost overrun we go see our 
lender, our banker, before we proceed. And I think it is--that 
is what you need to consider, also.
    And, Dr. Robyn, the judiciary included in their testimony 
earlier an example of a courthouse with maintenance and repair 
issues. Why wouldn't the first recommendation in such cases be 
to repair and renovate, rather than building a brand-new 
courthouse? And then, if you choose to build a brand-new 
courthouse, what happens to the old one? We have already talked 
about an inventory, a vacancy.
    Again, in the private sector, where I come from, inventory 
is a good thing when you can sell it. It is not a good thing 
when it sits on the shelf. So----
    Ms. Robyn. I--first of all, let me just clarify on the 
first point. We do--we--by statute, we are required to come 
back to you and the appropriators if we are at risk of going 10 
percent or more over budget. So that--so we absolutely do that.
    With respect to--I share your view. I am relatively new to 
GSA. I am a--I live in a 100-year-old home on Capitol Hill. I 
am a deep believer in historic preservation. And I think we 
have been too quick in recent years to build the shiny, new 
building, or the shiny, new courthouse, and not think hard 
about preserving the old building. And these old buildings are 
typically built in the 1930s and they are beautiful, and they 
have a lot of cultural significance to the community. So, we 
have made a change there, and do look first at how we can 
preserve the old building.
    In cases where--you take San Antonio, the old building, not 
so old, built as a World's Fair pavilion, windowless. Arguably, 
the court needs a new building, and we are going down that path 
to build a new building in San Antonio. And the city is taking 
over the old one. But it can be hard to find a reuse for an old 
courthouse. Typically, you know, you can't just turn it into a 
hotel. So that is one reason that we work so hard to try to 
preserve the existing buildings.
    Mr. Williams. Well, I think that is important for 
historical, but also sometimes it can be less money.
    Ms. Robyn. Well, yes, that is----
    Mr. Williams. Which we are all interested in right now.
    Ms. Robyn. Yes, it is--yes. No, the economics drive it.
    Mr. Goldstein. If I may, Congressman, we are now studying 
that particular issue for this committee, what happens to the 
old courthouses once a new courthouse goes up. So we will have 
some answers in the not-so-distant future.
    Mr. Williams. I would like to see those.
    Mr. Goldstein. Yes, sir.
    Mr. Williams. Thank you. I yield back.
    Judge Ponsor. In fact, Mr. Goldstein's staff is going to be 
visiting my courthouse in Springfield next week, and I am 
looking forward to showing him what happened to our old 
courthouse in Springfield, Massachusetts, which is now fully 
occupied by a hospital and the department of education for the 
city of Springfield. There are good stories where the inventory 
turns over, and Springfield is one of them.
    Mr. Williams. And a good business deal made by the 
Government.
    Judge Ponsor. Absolutely. And for the people of 
Springfield, yes.
    Mr. Williams. I yield back.
    Mr. Barletta. The Chair recognizes Mr. Rice for 5 minutes.
    Mr. Rice. Thank you. I also want to concur with these other 
gentlemen about the issue with renting the space. There is an 
old and dilapidated Federal office building in Florence, South 
Carolina, in which Lindsey Graham has his office--and I would 
have loved to have put my office there--and I tried to get a 
rent quote from GSA for 2 months. When I finally got it, it was 
about 2\1/2\ to 3 times the prevailing rate. Ended up going 
into a much nicer office building for about a third of the 
space. Would have kept the Federal dollars in the Federal 
Government if I could have, but I couldn't afford it under my 
MRA. So this is a very clear issue that we need to deal with. 
That is 3 congressmen out of 10 that you--facing this issue.
    Dr. Robyn, doctor of?
    Ms. Robyn. Public policy.
    Mr. Rice. Public policy. From?
    Ms. Robyn. Berkeley.
    Mr. Rice. Berkeley. Judge Ponsor? Your judicial degree was 
from?
    Judge Ponsor. Yale.
    Mr. Rice. Yale? And Mr. Goldstein?
    Mr. Goldstein. I have a public policy masters from George 
Washington.
    Mr. Rice. We have three brilliant people sitting here on 
this panel, and honored to be here in front of you.
    Judge Ponsor. Never mistake credentials for intelligence.
    [Laughter.]
    Mr. Goldstein. I think we agree again.
    Mr. Rice. Certainly far more intelligent than I. But the 
fact that, you know, the three of you can sit here with these 
very detailed criteria and disagree about whether or not this 
given courthouse was built--overbuilt, and by how much, is a 
very clear indication about how far awry we have gone with all 
this, with the congressional micro--attempts to micromanage, 
with the bureaucratic attempts to manage all these things, and 
with good intent. I mean with intent to save taxpayer dollars. 
I think the--in fact, what happens is that the reverse occurs, 
and that we have vast losses of taxpayer dollars through gross 
attempts to micromanage all these things.
    My opinion is that this ought to be run as if--you run any 
other business, and you lay out basic criteria, you put good 
people in charge. If they don't deliver, then you find another 
good person who can deliver, and you continue on down the road. 
I think these massive bureaucracies that we build are 
hamstringing the entire country. I think we are the best Nation 
on earth, we have more capacity than anyone on earth. Nobody 
can beat us, but we can sure beat ourselves. And we are doing a 
pretty doggone good job of it.
    This page 20, this list in the GAO report of courthouses, 
is this the one that we are talking about?
    Mr. Goldstein. Yes, it is, sir.
    Mr. Rice. The most recent one that has come up recommended 
to be built, which one would that be, do you know?
    Judge Ponsor. I think Mobile is at the top of the list, 
Mobile.
    Mr. Rice. That was the one that was most recently 
recommended to be built? I want to know how long each of these 
projects have been in process. That is what I am curious about.
    Judge Ponsor. Oh, I see, sorry. It is at the other end of 
the list. Chattanooga and Des Moines both came on the list in 
mid-2000. Those are the last two items. We actually don't have 
a 5-year plan any more, we have a 4-year plan, and they are the 
fourth year, Chattanooga and Des Moines, and----
    Mr. Rice. Mid-2000?
    Judge Ponsor. Mid-2000, yes, because they were--I know that 
they were post-AMP, our AMP process which we began using, and I 
believe it was invented in 2006 and came on in 2008. So----
    Mr. Rice. And what is the oldest one on this list?
    Judge Ponsor. Oh, my God. I think Savannah claims to have 
been on the list for 22 years, but the 5-year plan has only 
existed 18 years. So they go way back. We have projects that 
have been on the plan for a very, very long time.
    Mr. Rice. Well, you know, another extremely glaring example 
of how these attempts at micromanagement and other management 
are hamstringing our entire country. And I am afraid that it 
bodes very, very poorly for our future if we can't bring these 
things back into the realm of reason, to put some common sense 
back into this.
    I have dealt with commercial real estate a fair amount in 
the past. My history is a CPA, a tax lawyer. And I have 
personally seen and helped with bids on GSA projects where--the 
specifications being so very, very lengthy, detailed, and 
people being afraid of what they are going to have to deal with 
have resulted in very large--you know, much higher than any 
other normal project would be.
    So, I would say that sitting in these committee hearings, 
and particularly on the Transportation and Infrastructure 
Committee--I have been a congressman for 3 months now--and 
seeing these massive delays, and these confusions over 
regulation, we have got to do some basic rethinking of this 
process, or I am afraid we have--we are going to hold back this 
country's future.
    That is all I have. I yield back the rest of my time.
    Mr. Barletta. All right. The Chair recognizes Mr. Duncan, 
who has been tackling this issue for many years.
    Mr. Duncan. Well, thank you, Mr. Chairman. I have been at 
this a long time. This is my 25th year on this committee, and I 
have been interested in this issue from the start, because I 
did spend 7\1/2\ years as a circuit court judge just before 
coming to Congress.
    And, Judge Ponsor, I will tell you that I really like 
almost every judge I have ever met, but I will tell you that I 
spent the 2 months between when I took the bar exam and when I 
was sworn in almost full-time at the Knoxville Courthouse 
watching jury trials. And there were jury trials going on in 
every courtroom. And then I tried my first jury trial, I 
think--I know it was in my first week in practice. And we were 
just trying them right and left back in the early 1970s.
    Then I became a judge in 1981, and I tried 78 jury trials 
in my court alone that first year. I was trying--I came from a 
largely civil practice, but I had gotten into some big criminal 
cases also, and a lot of people thought I did more criminal 
work than I did, and I became judge of the criminal court and 
tried the felony criminal cases. Tried the attempted murder of 
James Earl Ray, and my court was the only court he ever 
testified in. I had a lot of interesting cases.
    But the law practice has totally changed now. And one of 
the civil court judges in Knoxville told me at a Christmas 
party a couple of years ago that he had tried six jury trials 
that year. And they are still having a few jury trials in the 
State courts, but in the Federal courts they are having--it is 
becoming so rare that I remember a few years ago Senator Jim 
Inhofe of Oklahoma, who was on this committee and sat right 
beside me, he said one time at one of our hearings, he said, 
``You could shoot a gun down the hallway of any Federal 
courthouse at 3:00 on any weekday afternoon and not hit 
anybody.'' And I don't know where he came up with that kind of 
example, but I remember him saying that to me.
    I appreciate your testimony, what you were saying, but it 
seems to me that we are going to have to get more than just 
testimony, we are going to have to get action on sharing these 
courtrooms because the jury trials, I think, unfortunately, are 
becoming a thing of the past. Would you have your people get me 
a--the statistics on how many jury trials were in all the 
Federal district courts in the past year?
    I have mentioned it here before. That is really the only 
significant statistic that we can look at. Because, for 
instance, I know that people who do forgeries, for instance, 
they typically would do many of them. And so they would come in 
and plead guilty to 20 or 25 forgeries. And then the clerk's 
offices would put out that 20, 25 cases had been disposed of. 
But a judge who had spent a week in a jury trial had actually 
worked a lot harder and done a lot more, but he--maybe if he 
didn't finish that case that week, I mean, you see what I am 
getting at, that----
    Judge Ponsor. Yes. I did a 5-month death penalty trial, and 
I got credit for disposing of one case.
    Mr. Duncan. Right.
    Judge Ponsor. Yes.
    Mr. Duncan. So, really, the only meaningful statistic to me 
is days spent in trial. Because that is when you are using a 
courtroom. So----
    Judge Ponsor. You want jury and jury waived, or just----
    Mr. Duncan. Yes--well, jury and nonjury. Yes, right. That 
would be--because a nonjury trial can take just as much time 
as--in fact, that year I said I had tried 78 jury trials, I 
tried 5 nonjury trials.
    Judge Ponsor. Right.
    Mr. Duncan. Now, even the criminal courts are not doing 
anything remotely close to that now.
    Judge Ponsor. No.
    Mr. Duncan. But it just--we are just going to have to do 
more on that. And I have been concerned about--I also was 
concerned because the Federal courts, we were paying about 
double the square-footage cost that the States were who were 
building beautiful State courts that were just as nice.
    But, at any rate, I appreciate your testimony. But we need 
to follow up on this, Mr. Chairman, and see if we are getting 
some action, also. Thank you very much.
    Mr. Barletta. Thank you, Mr. Duncan. Are there any further 
questions from any members of the committee?
    Ms. Norton. I just----
    Mr. Barletta. Yes, sure.
    Ms. Norton. Just for the record, Mr. Chairman, Judge Ponsor 
suggested that there might be repetitiveness in redoing the 
courthouses under the AMP process. And I have this question for 
all of you. If you are using only the process that brought us 
here, you are using a discredited process. That is the process, 
the old process that the judges used, which was discredited by 
the GAO report. That is one of the problems that this committee 
has.
    But let's say you did what the committee said to, and 
looked at--applied the AMP process. Isn't the essence of that 
process courtroom sharing? When you look at what happened in 
Greenbelt and San Jose, wasn't that the essence of the change 
that was made? Mr. Goldstein?
    Mr. Goldstein. Well, you know, we have a little bit of a 
chicken-or-egg problem. Both the judge and the Commissioner say 
that they reduced the size of the courthouses for sharing 
purposes and they didn't really go under the AMP process, but 
the point is really the same, that they went from very high on 
the list to 117 and 139, respectively. So, yes. Quite clearly, 
the impact of making changes and reducing costs and sharing was 
a major factor here----
    Ms. Norton. That was the final result there.
    Mr. Goldstein. Yes. They are now 117 and 139 on the list.
    Ms. Norton. And----
    Mr. Goldstein. When they had been in the top 15.
    Ms. Norton. And what brought them to that point was the 
decision to share?
    Mr. Goldstein. A reduction in the amount of space that they 
needed, in part, because of sharing, yes.
    Ms. Norton. I know that you, Judge Ponsor, said that 
somehow the committee is frustrating--frustrated that there is 
no position from the Judicial Conference on active courtroom 
sharing. I want to assure you the committee is not frustrated. 
The committee has a remedy of its own, and that is simply not 
to authorize any more courthouses.
    Judge Ponsor. Right.
    Ms. Norton. I want you to know that while every community 
wants a courthouse, that is not what our constituents are most 
clamoring for. If you go down the list and you were to put 
courthouses on it, I think you would find a courthouse at the 
bottom of the list. And I think that is not just a matter of 
the recovery we are in, and the great recession we have come 
out of. That is what it would always have been.
    There are always a few people who want courthouses led by, 
often, the Member from the district because the judges keep on 
the Member and the judges. But this just is of no priority. So 
do rest assured we are not frustrated. Because the ultimate 
remedy is in our hands. Unless we are satisfied that the AMP 
process, whatever you call it, including courtroom sharing, is 
applied, I don't see any disposition on either side of the 
aisle to authorize the construction of courthouses. And you are 
not building any courthouses that are not authorized.
    Now, let me finally say to Ms. Robyn, because, really, GSA 
is an unindicted coconspirator in everything that the courts 
have done. The courts have run the GSA. That has been what is 
frustrating us, that it has not husbanded the taxpayers' 
dollars, but has simply built whatever mausoleum that the 
courts wanted to have happen. It is a disgraceful record of the 
courthouse--of the GSA. And it is what the GSA has often done 
with building, period. You know, what the agencies want, GSA 
has tried to build. And that is what we have tried for years to 
put a stop to.
    But I have got a note here that in your testimony you say 
that the GAO opposes a moratorium on building courthouses. The 
GSA opposes, I am sorry, a moratorium on building more 
courthouses. On what base--no. You do it on the basis, 
essentially, that it undermines ``our ongoing maintenance of 
the Federal inventory.'' In other words, you want some more 
money in order to keep up courthouses. And if you get a great, 
big courthouse, you know, then that pays more rent to be 
managed by the GSA.
    But considering what happened even if we buy Judge Ponsor's 
notion--and I do, because I don't care how he does it, as long 
as he shares--that even given what happened in Greenbelt and 
San Jose, why would you urge this committee to go ahead, willy 
nilly, and build courthouses that have not undergone something 
close to the AMP process?
    Ms. Robyn. To say that I oppose the moratorium does not 
mean I think the committee should go ahead, willy nilly. This 
committee does not go ahead----
    Ms. Norton. Well, what is in between opposing the----
    Ms. Robyn. But I think----
    Ms. Norton. What is in between opposing it and not opposing 
it?
    Ms. Robyn. I think there is a fundamental misunderstanding 
here about the AMP process versus courtroom sharing. They are 
very different. They are not--the AMP process did not institute 
courtroom sharing. There may be some--the timing may be 
coincident, but the AMP process shifted the weights on--the 
essential thing, my understanding, is that it shifted the 
weights on the importance of the need for additional courtroom 
space, relative to other issues: security issues, condition of 
the building, operational deficiencies. It puts--the AMP 
process increased the importance placed on the need for 
additional courtrooms. In fact, there is a business rule that 
says something doesn't get on the list unless there is a need 
for two or more additional courtrooms.
    I am going to get in trouble for saying this, but I don't 
think I agree with that rule. I think there are--if you look at 
why Mobile, Savannah, and some of the other projects are on the 
5-year list, they got on that list--they may have needed 
additional courtrooms at the time, before we applied courtroom 
sharing and other approaches to right-sizing, but they 
typically have other problems, inability--lack of secure 
circulation----
    Ms. Norton. Those other problems, Dr. Robyn, might be 
handled by some kind of rehabilitation----
    Ms. Robyn. Yes, exactly. But that is kind of----
    Ms. Norton. So the moratorium is on new courthouses, Dr. 
Robyn.
    Ms. Robyn. Well, it is--but it could be an annex. So in the 
case of Mobile, we can't solve it--believe me, I wish we 
could--but entirely within the confines of the existing 
building, the Campbell----
    Ms. Norton. Are you saying that the AMP process does not 
give appropriate consideration to the deteriorating condition 
of a courthouse, but only looks at some figures and not at 
others?
    Ms. Robyn. I--look. I am not an expert on the AMP process, 
so I don't want to----
    Ms. Norton. Let me ask the expert, Mr. Goldstein.
    Ms. Robyn. But it is not----
    Ms. Norton. Mr. Goldstein, would you just----
    Ms. Robyn. Yes.
    Ms. Norton. Just for the record, before we leave this 
hearing, would you explain the AMP process, and why the AMP 
process was--is being promoted?
    Mr. Goldstein. There is two major--there are several major 
changes that are important to note, in terms of the criteria, 
from the old process to the new process. Some of it is good and 
some of it maybe not so good. And it is very interesting.
    Under the old capital planning process, under the old 
process, there were four weights: the year in which courthouses 
would run out of space, it got 30 percent; security 
deficiencies, 30 percent; operational concerns, 25 percent; 
current and future courtroom and chamber need, 15 percent.
    Now, the major difference here under the new process, and 
it is one where I am a little concerned about the kind of 
comments that the judiciary made in telling GAO that we didn't 
look at operational or security concerns, but those weights, by 
their own process, become a minuscule part of what is examined 
today.
    So, what has happened is that security deficiencies and 
operational deficiencies, which were more than 50 percent, are 
now only a small part of one bucket which has 40 percent, and 
it is called facility benefit assessment. And the majority of 
what is looked at, the criteria, are courtrooms needed by judge 
type and chambers needed by judge type, which is 50 percent. In 
other words, what the judges actually get has gone from 15 
percent to more than 50, because they also get a portion of 
what is considered under the facility benefit assessment, as 
well. So, that is the major change in how things are weighted.
    And so, I am concerned, because while we are talking about 
trying to improve the efficiency, part of what we are seeing 
here is that a greater emphasis on the needs for courtrooms and 
chambers, as opposed to operational and security elements, 
which--obviously, are extremely important, as well.
    Judge Ponsor. Could I insert a comment?
    Ms. Norton. Certainly.
    Judge Ponsor. I was feeling quite sympathetic to Dr. Robyn 
as she was trying to express the AMP process.
    The AMP process was created by the judiciary. It wasn't 
created by the GSA. GSA is not the expert on the AMP process. 
That is our process.
    There are four factors in the AMP process right now. Thirty 
percent is whether the courthouse is big enough to hold the 
judges that are there. In some cases, it just isn't. Thirty 
percent has to do with the systems in the building, whether it 
is falling apart.
    In Savannah, we don't have a problem with room. The 
courthouse is falling down. It was built in 1899. The corbels 
are falling off the building and hitting people on the head. 
They have got a big fence around it so people don't get hit on 
the head. They have got hall corridors that dead end with no 
fire egress. They have got no sally port. They have got no 
secure lockups, they have got no secure elevators. The Marshals 
Service says it is a catastrophe waiting to happen.
    Twenty-five percent is security. So we got 30 percent for 
size, we got 30 percent for building systems, we got 25 percent 
for security, and we got 15 percent for compliance with the 
Design Guide, which means we don't have 1,000-square-foot 
courtrooms, which are too tiny to really do anything. So we 
look at that. But that is 15 percent.
    So that is the AMP process. The courts developed that as a 
way of refining our rankings of urgency. But I can only repeat 
that I do believe the process that we had prior to that was 
adequate to identify urgency for other courthouses.
    You all have already appropriated $188 million for the 
courthouses that are on the plan. Eight of them have sites. Do 
we want to waste that? Two of them have land swaps already, San 
Antonio and Charlotte, where the municipalities have swapped 
land, and they are waiting for the courthouses to be built.
    I am not going to be chair of this committee 5 months from 
now. My community has a nice courthouse. But I feel like I am 
speaking for the people of Chattanooga, the people of San 
Antonio, the people of Charlotte, the people of Harrisburg, who 
have been waiting, sometimes for 15 years, with courthouses 
that are falling to bits. And the courthouses, they are clearly 
needed. And I am just hoping that, when the times comes, that 
there are funds to build these courthouses, and we can come 
back to you and persuade you----
    Ms. Norton. Mr. Chairman, so long as the judiciary supplies 
the committee with evidence that it has met all of the criteria 
that it itself created, I am sure this committee would be 
willing to proceed. I thank you, Mr. Chairman.
    Judge Ponsor. Thank you.
    Mr. Barletta. I would like to thank each of our witnesses 
for your testimony today. Your contribution to today's 
discussion has been very informative and helpful.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing, and I ask unanimous consent that the record remain 
open for 15 days for additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    [No response.]
    Mr. Barletta. Without objection, so ordered. If no other 
Members have anything to add, the committee stands adjourned.
    [Whereupon, at 12:33 p.m., the committee was adjourned.]

</pre></body></html>
